UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal Luscourts.gov

David J. Smith
Clerk of Court

July 10, 2020
Tracey Merrill
Calhoun Cl - Inmate Legal Mail
19562 SE INSTITUTION DR
BLOUNTSTOWN, FL 32424
Appeal Number: 20-10511 -H
Case Style: In re: Tracey Merrill
District Court Docket No:
The enclosed order has been entered. No further action will be taken in this matter.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H
Phone#: (404) 335-6182
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

IN THE UNITED STATES COURT OF APPEALS

imus petition is

FOR THE ELEVENTH CIRCUIT
late means are
No. 20-10511-H
son v. Motel 6
In re:

I). Mandamus
TRACEY MERRILL,

istrict court in
I

Petitioner.

ferior court to a
y when it is its

On Petition for Writ of Mandamus
larks omitted).
vho claims that
BEFORE: MARTIN and JILL PRYOR, Circuit Judges.

tes.” 28 U.S.C.

BY THE COURT:
Tracey Merrill, a Florida prisoner proceeding pro se, has filed a petition for a writ of

Terrill asks this
!■

I

mandamus arising from his state criminal proceedings in the Fifth Judicial Circuit of Florida. He

cognizable in

also moves for leave to proceed in forma pauperis (“IFP”). Merrill requests that this Court

authority, and

“dismiss the sentence and charges with prejudice.”

th, 926 F.2d at

Merrill seeks to file this mandamus petition pursuant to 28 U.S.C. § 1915(a). Section

lallenging the

1915(a) provides that a United States court may authorize the commencement of any proceeding,

s petition. See

without prepayment of fees, by a person who submits an affidavit that includes a statement of

)tion is hereby

assets that he possesses, and indicates that he is unable to pay such fees. This Court, however,
may dismiss an action at any time if it determines that the allegation of poverty is untrue or the
action or appeal is frivolous. 28 U.S.C. § 1915(e)(2). Even assuming that Merrill has established

,

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
TRACEY ALLEN MERRILL,
Appellant,
v.

Case No. 5D15-4359

STATE OF FLORIDA,
Appellee,

Decision filed December 13, 2016
Appeal from the Circuit Court
for Hernando County,
Daniel B. Merritt, Jr., Judge.
Tracey Allen Merrill, Perry, pro se.
James S. Purdy, Public Defender, arid
Nicole Joanne Martingano, Assistant
Public Defender, Daytona Beach, for
Appellant.
Pamela Jo Bondi, Attorney General,
Tallahassee, and KeHle A. Nieianv
Assistant Attorney General, Daytona
Beach, for Appellee.
PER CURIAM.
AFFIRMED.

LAWSON, C.J., COHEN and WALLIS, JJ„ concur.

